                                                  Report No. AUD-08-010                                         July 2008

                                                  Controls Over Background Checks of Child
                                                  Care Provider Personnel
      Federal Deposit Insurance Corporation

                                                  Audit Results
Why We Did The Audit
                                                  Controls over background checks of child care provider personnel
The objective of the audit was to assess the      needed improvement. Importantly, DOA had conducted preliminary
FDIC’s controls for performing background         background checks on all 57 of the child care provider personnel
checks of child care provider personnel
                                                  working in the FDIC’s child development centers as of January 25,
working in the FDIC’s child development
centers. As part of the audit, we performed       2008. However, DOA had not ordered a NACI for 26 of the 57
limited procedures to assess building             personnel or a State History Repository check for 42 of the 57
security services related to the child            personnel as prescribed in the MOU. In addition, DOA had not
development centers.                              performed background checks defined in District of Columbia laws
                                                  and regulations and the laws and regulations of the Commonwealth
                                                  of Virginia and the County of Arlington for the 57 personnel.
Background                                        Further, although DOA generally provided the CDC with the results
                                                  of its preliminary background checks, DOA had not provided the
The FDIC’s Division of Administration             CDC with the results of the OPM investigations. Weaknesses in the
(DOA) entered into a Memorandum of                FDIC’s background checks increased the risk that a problem
Understanding (MOU) with the Finding              involving the suitability of a child care provider employee would go
Dreams In Children Child Development              undetected, posing potential safety concerns to the children and
Centers, Inc. (CDC) to provide the CDC            reputational risk to the Corporation.
with space and certain services for two child
development centers located in the FDIC’s
headquarters offices. Key services provided       We also identified building security vulnerabilities related to the
by the FDIC under the MOU include                 child development centers warranting management’s attention.
building security to help ensure a safe
physical environment for the children and         To its credit, DOA took a number of actions to address the
background checks to help ensure the              weaknesses related to background checks and building security
suitability of child care provider personnel.     services identified during the audit, and additional actions were
                                                  underway at the close of our field work.
FDIC background checks of child care
provider personnel consist of two principal
components—a preliminary background               Recommendations and Management Response
check and background investigations
conducted by the U.S. Office of Personnel
Management (OPM) (i.e., OPM                       The report contains five recommendations to strengthen the controls
investigations). Preliminary background           for conducting background investigations and to address the security
checks are intended to assess whether child       vulnerabilities identified during the audit. The FDIC concurred with
care provider personnel meet FDIC                 our recommendations and has either completed or planned
requirements for accessing FDIC facilities.       responsive actions.
OPM investigations are intended to assess
whether child care provider personnel are         This report addresses issues associated with physical security access
suitable to work in the FDIC’s child              and with the operations of entities that are not contractors of the
development centers. OPM investigations           FDIC. Accordingly, we do not intend to make public release of the
consist of a National Agency Check with           specific contents of the report.
Inquiries (NACI) (i.e., a search of federal
investigation databases and other inquiries)
and a State History Repository check (i.e., a
search of state criminal history repositories),
in accordance with the Crime Control Act of
1990.
